                                       Testimony of

                      THE HONORABLE TODD J. ZINSER
                           INSPECTOR GENERAL
                         U.S. DEPARTMENT OF COMMERCE

                                          before the

    Subcommittee on Information Policy, Census, and National Archives,
           Committee on Oversight and Government Reform,
                        House of Representatives

                            Wednesday, October 21, 2009


                         Census 2010:
            Importance of the Master Address File and
         Steps Census Can Take to Strengthen Its Quality

Mr. Chairman, Ranking Member McHenry, and Members of the Subcommittee:

Thank you for inviting us to testify on the status of the Census Bureau’s master address
file, which has important implications for the accuracy of next year’s census. My
testimony today will describe how the master address file, or MAF, is used—including its
relationship to address canvassing and the bureau’s plans to improve it. We will also
offer suggestions for strengthening MAF quality and, with it, the likelihood of Census
2010 success.


ADDRESS ACCURACY IS KEY TO CENSUS SUCCESS

The mission of the 2010 census—to count people once, only once, and in the right
place—is a difficult task. For the successful completion of the 2010 census, the Census
Bureau must:
•    Identify all potential structures in which people might reside—estimated to total more
     than 130 million housing units—and accurately depict them on census maps.
•    Determine the best method of enumerating people living in those structures—either
     by mail or through in-person interviews.
•    Accurately aggregate its enumerations by statistical and political jurisdictional
     boundaries.
The ability to improve accuracy and contain costs depends on two major elements:
delivering questionnaires to the correct physical locations; and motivating the public to
complete and—in most cases—mail back their forms. When this does not happen, the
bureau must enumerate the population through expensive non-response follow-up and
other operations that require temporary workers to go door-to-door to obtain census
information. Projected to cost $80–90 million for each additional percentage point of the
public that a census enumerator must visit, non-response follow-up represents Census’s
single largest cost driver. Follow-up operations also introduce the possibility that
individuals may be counted more than once.

The Census Bureau describes “an accurate, comprehensive, and timely [address] list” as
“one of the best predictors of a successful census.” If the list is incomplete or inaccurate,
people may be missed or counted more than once. Errors in the MAF can also increase
costs and the public burden by requiring visits to nonexistent or duplicate locations in
non-response follow-up.

For the 2010 decennial, the bureau will rely on the MAF to identify all places in which
people live—or could live—and stay. The MAF is intended to be a current,
comprehensive list of every address in the nation, whether occupied or vacant. The
bureau associates MAF addresses with their locations on the bureau’s digital map, known
as TIGER (Topologically Integrated Geographic Encoding and Referencing). This
process is referred to as geocoding. Only geocoded addresses are included in the address
canvassing operation, and only geocoded addresses receive census questionnaires.
Geocoding is the method the bureau uses to fulfill its mandate to count people in the right
location.


THROUGHOUT THE DECADE, BUREAU’S ATTEMPTS TO ENHANCE ADDRESS LIST MET WITH
ONLY PARTIAL SUCCESS

Following Census 2000, the bureau launched an ambitious plan to maintain and update
the MAF and TIGER databases. Planned activities included integrating the two systems
into a single MAF/TIGER database, realigning every street and boundary in the TIGER
database, conducting the annual Boundary and Annexation survey to update the legal
boundaries of all governmental units, updating the MAF semiannually with U.S. Postal
Service (USPS) addresses, determining the physical locations of ungeocoded postal
service addresses, and updating rural areas using staff from the American Community
Survey (the survey that replaced the long-form census). The first four of these activities
were implemented fully, the last two only partially.

Census’s initial 2010 design also included maintaining and updating the address list
throughout the decade and using a targeted approach to address listing. The bureau
estimated that $155 million in savings could be achieved. These savings depended on the
use of Global Positioning System (GPS)-equipped handheld devices to reduce time and
travel costs associated with non-response follow-up and a targeted approach rather than



                                              2
employing a massive end-of-decade address listing operation. In March 2004, Census
issued a planning memorandum that stated that the bureau no longer believed that “we
can assume this approach will be perfected for 2010.”

For the 2010 decennial, two principal address-updating operations were ultimately used,
incorporating local government-provided address information through an operation
known as Local Update of Census Addresses (LUCA), and nationwide address
canvassing. Over 8,000 state, local, and tribal governments participated in LUCA, adding
more than 8 million addresses to the MAF that were also included in the address
canvassing operation. MAF/TIGER will evolve from Census 2000 through the 2010
operations. Updates occur throughout the decade, the most significant being the twice
yearly U.S. Postal Service address updates. In addition, several 2010 Census operations
provide an opportunity to add housing units, and a final USPS update occurs in February
2010.

Costing over $400 million, address canvassing was designed to ensure that the census
address list and maps are as accurate as possible by verifying, updating, or deleting
addresses; adding missing addresses; updating streets on the TIGER maps; and
geocoding every structure by assigning GPS coordinates. During this huge operation,
about 140,000 temporary decennial staff, using handheld computers containing MAF
addresses and TIGER maps, tried to identify every location at which an individual could
live or stay and ensure that it was correctly recorded and geocoded. Address canvassing
for the 2010 Census was completed in July 2009.

To provide some idea of the magnitude of this undertaking, address canvassing began
with about 145 million addresses; after verifying, adding, and deleting housing units, the
final housing unit count was reduced to just under 134 million addresses.


OFFICE OF INSPECTOR GENERAL (OIG) WORK THROUGHOUT THE DECADE ILLUSTRATES
THE EFFECT THAT ERRORS AND OMISSIONS CAN HAVE ON MAF QUALITY

Developing an accurate MAF and maps has been a long-standing challenge for the
Census Bureau. We have issued 29 reports and testimony on the decennial census since
March of 2000, with over half of them addressing this subject in particular. These 17
products contained numerous recommendations for improving MAF and TIGER. Our
reviews have consistently found problems with the maps and address information, and we
have raised concerns about the effectiveness of address canvassing to correct these errors.

       2006 SITE TEST IDENTIFIED EXAMPLES OF DIFFICULTIES WITH ADDRESS
       ACCURACY AND CANVASSING APPROACH

In evaluating activities to update the MAF and related maps during the Census Bureau’s
2006 test of planned decennial operations, designed to test proposed concepts, systems,
and procedures for the 2010 Census, we reviewed actual field operations in the test
locations. We found examples of missing, duplicate, and erroneous addresses.



                                             3
The 2006 test was conducted in two locations: a portion of Travis County, Texas, that
included parts of the city of Austin and its suburbs; and the Cheyenne River Reservation
and Off-Reservation Trust Land in South Dakota. We visited both locations several times
to observe address canvassing and two enumeration operations; we found a number of
issues with the MAF and maps.

In South Dakota, the bureau tested address canvassing using the handheld computers
followed by the update/enumerate operation it planned to use in the 2010 census.
Update/enumerate is used to count American Indians living on reservations, colonias
(usually rural, Spanish-speaking communities), resort areas with high concentrations of
seasonally vacant living quarters, and other hard-to-find rural populations. During
update/enumerate, which is a paper-based operation, Census staff go door-to-door to
collect population data. They are instructed to also make any needed corrections to the
bureau-generated maps and address lists that they use to locate housing units. Our
findings from this test included the following:

       •   The bureau’s update/enumerate procedure requires staff to systematically
           travel all streets, roads, and paths in each block in a clockwise direction,
           comparing housing units on the ground with those on the maps. During the
           operation, we observed that enumerators had difficulty finding their
           assignment areas, reading the map spots (which represent individual housing
           units), and associating address descriptions with the correct housing units
           because address canvassing did not adequately improve maps or housing unit
           descriptions.

       •   Enumerators often could not determine where to start canvassing because one
           or more assignment area’s boundaries were unmarked, nonexistent, or
           otherwise difficult to find and had inaccurately portrayed landmarks.
           Enumerators consequently resorted to traversing from map spot to map spot,
           which caused them to miss some housing units. We identified a number of
           missed or duplicate housing units along such boundary lines.

       •   As we traversed portions of 12 reservation assignment areas containing a total
           of 480 housing units after completion of update/enumerate, we found 35 that
           were never enumerated; 25 of these were not even on the map. For the
           remaining 10, enumerators misidentified the target housing unit and
           enumerated the wrong household, thereby creating duplicate enumerations.
           Further, these 35 housing units were not enumerated during the subsequent
           coverage follow-up operation.




                                            4
Our findings for Travis County related to address canvassing and group quarters
enumeration included the following:

       •   One lister could not find a block that contained several structures because it
           was bordered by an unnamed road not accurately represented on the handheld
           computer’s map. As a result, the GPS you-are-here function indicated, in
           error, that the block was in the middle of an empty field. The lister did not
           delete the misplaced road from the map and did not canvass the actual
           location.

       •   After conducting a limited Internet search and speaking with only four group
           home administrators, we learned of at least 15 group quarters that were not on
           the list. Given the limited nature of our inquiry, many more were likely to
           have been missed. Identifying group quarters is important to those
           representing the various constituencies in group homes, even if the residents
           are counted via the housing unit questionnaire or during non-response follow-
           up operations, because data users want accurate facility and population counts.

       •   During our on-site observation of the group quarters enumeration operation,
           we became aware of two such facilities that also received housing unit
           questionnaires. We then reviewed 59 group quarters addresses to determine if
           any matched a housing unit address, which would mean that it also received a
           housing unit questionnaire. Six of the 59 group quarters addresses were
           confirmed by Census Bureau staff as, in fact, having also been listed as
           housing unit addresses that received housing unit questionnaires, which may
           have resulted in duplicate counting.


       2008 DRESS REHEARSAL IDENTIFIED UNGEOCODED USPS ADDRESSES, MISSED
       HOUSING UNITS, AND INCONSISTENCIES BETWEEN PHYSICAL AND MAILING
       ADDRESSES THAT CAUSED LISTING ERRORS

We assessed address canvassing again in the 2008 dress rehearsal—reviewing
information for 18,694 addresses from 125 assignment areas (100 randomly selected by
Census and another 25 that we observed during dress rehearsal address canvassing).
Many of the issues we reported in 2006 remained. Although we could not project an error
rate to the overall MAF based on our sample, the regularity with which these problems
surfaced suggests that they may be significant and could reduce the accuracy of the 2010
count. Census expects that other subsequent operations, such as update/leave (a
questionnaire is left for the respondent to return by mail), new construction, and new
postal service addresses, will resolve some of these errors, but—as we discuss later in this
testimony—none will provide a comprehensive solution for identifying missed addresses
that could be included in next year’s census.




                                             5
Specific dress rehearsal findings included the following:

       •   Two MAF improvement programs were canceled in 2007. The following year
           the programs were canceled. One program in particular, the MAF geographic
           office resolution program, would have linked (geocoded) USPS addresses to a
           specific location.

       •   Millions of ungeocoded Postal Service addresses in the MAF set the stage for
           missed housing units and increased workloads. For example, a 352-unit
           apartment complex was missing from the address canvassing list. The
           complex was built after 2000 and was in the MAF, but it was not geocoded
           and was therefore not on the address list given to the employee assigned to
           canvass the area. The canvasser correctly added 346 addresses, but mistakenly
           missed six apartment units and added one that did not exist.

           We do not know if and how often this may have occurred during address
           canvassing conducted for the 2010 census, but to the extent that it did, the
           occupants of housing units not added to the list face an increased risk of not
           being counted. These errors could likely have been avoided if the geocoding
           program had been funded. With the 2010 address canvassing operation now
           completed, 3.3 million MAF address records still remain ungeocoded.

       •   The second problem pertaining to ungeocoded addresses relates to
           inconsistencies between physical and mailing addresses. A 391-unit
           retirement community illustrates how the workload increases for a poorly
           maintained address list. Canvassing lists for the retirement community
           contained “location” addresses—street names and unit numbers (e.g., 3629 E.
           Adams Avenue)—but in this case they did not correspond to the Postal
           Service mailing addresses. This is because USPS uses the complex name and
           unit number, known as the “vanity” address (e.g., 3629 ABC Apartments).
           The vanity addresses exist in the MAF (as provided by Postal Service updates)
           but are not geocoded to a specific block location, so they do not appear on
           canvassers’ lists.

           If these developments had been new during 2010 address canvassing, listers
           would have had to add them to the MAF. However, residents likely would not
           receive a questionnaire anyway because the location addresses are often not
           recognized by the Postal Service. Consequently, these addresses will go into
           the costly non-response follow-up operation.

       •   Duplicate addresses were entered into the MAF during address canvassing.
           We found examples of quality-control staff reinstating addresses that had been
           correctly deleted by the canvasser, and incorrectly adding addresses to
           canvassers’ lists. In one example, 17 addresses correctly verified by a
           canvasser in one block were added to an adjacent block during quality control.
           Therefore, two sets of identical addresses now existed on the same street.



                                            6
             In 2000, geography-matching operations in Census Bureau headquarters
             would have attempted to identify and eliminate the identical addresses from
             the second block. But for 2010, Census has decided that it must keep these
             duplicate addresses as valid housing units to avoid missing a residence.
             According to the bureau, if it receives completed questionnaires from both,
             the addresses will still not be identified as duplicates since the housing units
             are in separate blocks. Such instances will likely result in over-counting.
        •    We also found that several hundred addresses in our sample were duplicates
             except for ZIP code. Up-to-date addresses were added by a LUCA operation
             conducted as part of dress-rehearsal testing, but the updates were not
             recognized as the same housing units in the MAF because the ZIP codes were
             different, so the LUCA addresses did not override the outdated entries. We
             brought this to the attention of Census staff, who told us that for 2010, they
             will not match on the entire zip code, only the first three digits, which should
             prevent duplication from occurring.

        2010 ADDRESS CANVASSING OPERATION: LISTERS DID NOT CONSISTENTLY
        FOLLOW BUREAU PROCEDURES, THEY COULD NOT MAKE DATA CORRECTIONS,
        AND POOR PERFORMERS WERE NEITHER RETRAINED NOR REMOVED

With the beginning of address canvassing last spring, we have given considerable
attention to assessing the management issues and risks involved in planning and
conducting field operations. We observed the address canvassing operation firsthand
across the country, and issued two reports 1 on address canvassing. A third such report,
detailing the quality-control issues summarized below, is forthcoming.

We observed both the initial listing and subsequent quality-control steps. OIG staff first
observed address canvassing in 15 different locales in 5 of the 12 Census regions. Based
on the problems we observed, we expanded the number and breadth of our field address-
canvassing quality-control observations to 63 listers in 37 rural and 14 urban areas
around the country.

Findings from our observations of address canvassing include the following:

        •    Listers failed to conform to address-listing and map-spotting procedures in
             seven different locales representing all five regions in which we had
             observers. On April 23, 2009, we recommended to Census that it immediately
             communicate in writing with its field offices to reinforce the need to follow
             documented procedures. Census responded rapidly by issuing an e-mail
             message to field staff and conducted a teleconference with its regional
             directors about the issue.

1
  Observations and Address Listers’ Reports Provide Serious Indications That Important Address
Canvassing Procedures Are Not Being Followed (May 4, 2009, OIG-19636-01) and Problems Encountered
in the Large Block Operation Underscore the Need for Better Contingency Plans (August 7, 2009, OIG-
19171-02). See the appendix for a full listing of all OIG reports and testimony on the census from March
2000 through October 2009.


                                                   7
       •   Quality-control staff were unable to correct the address list after the quality
           check of a sample of housing units had been completed without the need for
           additional canvassing. Census staff often identified errors in a subsequent
           operation intended to verify all addresses deleted by the initial address lister.
           However, the handheld computers—performing as specified by Census—did
           not allow most address-list changes during that operation. Consequently,
           while confirming deletions, quality-control listers identified housing units on
           the list that should have been deleted; or discovered housing units, streets, and
           new developments that were not added. They were unable, however, to update
           the address list and maps on the handheld computers.

       •   Census acknowledged this inability to make unplanned corrections in the field
           using the handheld devices, and by the end of March of this year, headquarters
           instructed the field to use a paper form referred to as an INFO-COMM to
           record address and map errors found after the quality check had passed.
           According to address canvassing manuals, INFO-COMMs were to be used to
           identify canvassing problems, typically related to broken handheld computers
           or inaccessible areas due to locked gates or similar situations, including those
           deemed to be threatening.

           Prior to the end of address-canvassing, Census personnel resolved INFO-
           COMMs with local Census office managers. However, recording address list
           corrections on INFO-COMMS was a new process. Therefore Census has no
           way of reliably knowing whether all necessary corrections were recorded on
           INFO-COMMs or if all INFO-COMMs were collected by the local census
           offices.

       •   Census did not retrain or remove poorly performing listers from the initial
           listing operation. While Census uses the quality check, in part, to identify
           poorly performing listers, the canvassing operation proceeded so quickly that
           the quality check did not begin until after much of address canvassing was
           completed.

       •   Our observations also noted a relaxing of map spot standards in five of the 12
           Census regions. According to Census, however, it does not consider its actions
           to be a relaxation of standards, although it did issue guidance during the
           quality-control operation stating that, as long as listers placed the map spot
           reasonably in relationship to other living quarters in the block, the map spot
           was acceptable. Yet such loosely placed map spots defeat one of the primary
           justifications for obtaining GPS-aligned positioning: to ensure that listers
           geographically place housing units in the exact correct location for purposes
           of redistricting and governmental tabulations.

As we reported in August in our first quarterly report to Congress, the Census Bureau’s
ability to effectively oversee decennial progress has long been hampered by inherent
weaknesses in its systems and information for tracking schedule, cost, and risk-


                                             8
management activities. While the bureau’s management of risk represents a significant
improvement over the 2000 census, which lacked a formal risk-management process,
much more remains to be done.

For example, as part of its risk-mitigation strategy, Census selected 11 of 24 program-
level risks for the development of contingency plans. One risk area identified was related
to the MAF and referred to as “Housing Unit Duplicates and Misses.” However, even at
this late hour, this plan is still being formulated, and no date has been set for its
completion.


THE BUREAU HAS OPERATIONS PLANNED TO IMPROVE THE MAF, BUT COULD TAKE
ADDITIONAL STEPS TO ENHANCE THE QUALITY OF THE ADDRESS LIST PRIOR TO 2010
DECENNIAL OPERATIONS

The Census Bureau has operations subsequent to address canvassing that will continue to
update the MAF. Examples of some of the bureau’s most significant planned operations
that will improve the address file include the following:

       •   Group Quarters Validation—a field operation designed to determine if
           addresses identified in canvassing as “other living quarters,” such as marinas,
           college dormitories, prisons, assisted living facilities, and nursing homes, have
           been correctly classified and are not, for example, housing units or non-
           residential. Fieldwork started late September and is scheduled to finish in late
           October. (We are currently reviewing this operation.)
       •   New Construction Adds—an operation to be conducted between November
           2009 and March 2010 that will allow local governments to provide addresses
           of recently built living quarters whose construction began after address
           canvassing and is expected to be complete by April 1, 2010.
       •   Update/Leave and Update/Enumerate—enumerators canvass assignment areas
           to update residential addresses, including adding living quarters that were not
           included on the address listing pages; update Census Bureau maps; and either
           leave or complete a questionnaire for each housing unit. These occur in
           communities with special enumeration needs and in which many housing
           units may not have house-number-and-street-name mailing addresses, or do
           not receive USPS delivery. These operations occur during the March to early-
           June 2010 timeframe.
       •   Be Counted—unaddressed “Be Counted” questionnaires are left at selected
           sites such as libraries and various other community locations for one month
           starting March 19, 2010. The forms have a mailing deadline of May 1, 2010.
           Addresses on these forms require geocoding and if not currently on the
           address list, require verification to ensure they are housing units after they are
           received by the bureau.




                                             9
        DETERMINING THE QUALITY OF THE ADDRESS LIST NOW

The completion of address canvassing represents a major milestone in the 2010 census
process. Despite errors, this list provides a baseline of the address list as it existed at the
end of July 2009. The planned operations described above will be valuable in identifying
missed and new addresses, but they do not provide a comprehensive assessment or
corrections based on a review of the errors in the MAF. In responding to the question of
what additional steps the bureau should consider to improve the MAF, we make several
suggestions. In so doing, we recognize Census officials must account for the
nonnegotiable deadlines that they must meet, and the potential impact that these
suggestions would have on its remaining operations.

Census should consider the following approaches to assess and improve the quality of the
MAF. The goal is to afford some level of assurance of the accuracy and completeness of
the MAF, and provide a roadmap for improvement.


        9 HOUSING UNIT ESTIMATES REPRESENT AN EXISTING TOOL THAT COULD HELP
          ASSESS MAF QUALITY

            For the past two decades, the Census Bureau has produced annual estimates of
            housing units for the nation, states, counties, and local jurisdictions as part of
            its program for estimating population between censuses. The estimates are
            calculated by cumulatively adding new housing to the current decennial’s
            housing unit count (and subtracting those demolished) for each level of
            geography.

            These estimates already serve as controls for many of the bureau’s surveys.
            Further, the bureau used these benchmarks to assess under- and over-counts at
            the county level for Census 2000. For example, count comparisons for over
            800 of the nation’s most rural counties indicated potential undercoverage in
            275 of the counties. In our work on the Census 2000 MAF, we recommended
            that the bureau use those results to inform remaining decennial operations in
            the many counties with significant discrepancies. In rural areas, knowledge of
            a significant number of missing addresses would alert the update/leave and
            update/enumerate operations to expect an increased workload.

        9 While these estimates are not without flaws, these data could again be used by
          the bureau to analyze potential shortfall or excess with the MAF for the 2010
          decennial, at least at the county level, and to target areas where improvements
          to the MAF are needed.




                                              10
           ADMINISTRATIVE RECORDS CAN HELP ASSESS AND IMPROVE THE MASTER
           ADDRESS FILE

           Another source of data for assessing the quality of the MAF are administrative
           records—data collected for the administration of programs and provision of
           services by federal, state, and local governments and commercial entities.
           Administrative records include, for example, address information from
           housing assistance, health services, and tax forms. The bureau already uses
           administrative records directly in its economic censuses and surveys to create
           yearly housing and population estimates. However, the bureau has not used
           this type of administrative record to incorporate missing addresses into the
           MAF. The current MAF could be compared against address data contained in
           administrative records to help identify errors and, in certain instances, to add
           missing addresses.

           Census has considered the use of administrative records to supplement and
           guide the decennial census since the 1990s, when it began a formal
           administrative records program. The bureau has continued to process and
           collect this information and has developed a wealth of knowledge in the
           processing, matching, and deletion of duplicates for literally billions of
           records on an annual basis. In response to the high and differential undercount
           in the 1990 census, the bureau in 2000 used administrative records to evaluate
           housing unit coverage.

           The bureau already uses administrative records—in the form of the Postal
           Service file—as a major component in building and updating the MAF. Use of
           administrative records to directly enhance the address file has the potential to
           improve the quality of the decennial with information the bureau already has
           on hand.


           CENSUS CAN TAKE SPECIFIC STEPS NOW TO BETTER ENSURE BROADER
           CENSUS COVERAGE THROUGH ACCURATE ADDRESSES

The Census Bureau should consider comparing the MAF against the annual housing unit
estimates in multiple geographic areas to help determine whether the results of address-
list building to date appear reasonable. Further, the bureau should consider matching
current administrative records to the MAF, since this provides the ability to both assess
MAF quality and directly validate and improve the MAF by identifying and potentially
adding missing addresses. Completing theses operations quickly could provide the
opportunity to add missing addresses to its questionnaire mailing list.

While it is late in the process to affect the initial mailout/mailback list created this month,
a supplemental mailing list for housing units including results from Group Quarters
Validation will be created in December. This supplemental address file and the address
file for the targeted replacement questionnaire, which will be mailed in early April to



                                              11
certain non-responding households, provide opportunities to incorporate missed
addresses.

We recognize that this approach is not without risk. The bureau would have to deal with
ungeocoded and duplicate addresses, which could be handled similarly to the approach
used in the Be Counted program, but would increase the workload. Census would have to
evaluate whether the increased workload could be accomplished without jeopardizing its
existing operations. Given the late date, we anticipate that the Census Bureau may be
reluctant to consider these steps. However, there are strong reasons to explore these
approaches, and we would recommend that the bureau give them serious consideration.

If the bureau determines that incorporating missed addresses would be too burdensome at
this stage of the decennial, there would still be benefits to identifying areas where
addresses are missing. This includes alerting subsequent field operations, on a targeted
basis, of the high potential for an inaccurate list and the need for increased vigilance in
address list update and enumeration activities. This would inform Census managers of the
need for emphasis in these areas.

The importance of the Master Address File cannot be overstated for this decade or the
next, nor can the challenges faced by the bureau in achieving a high-quality address list
for the census. Our numerous observations of address canvassing throughout the decade
reinforce the difficult and error-prone nature of the task. Twice in this past decade our
evaluations have resulted in recommendations that Census reassess the desirability of
conducting this massive end-of-decade operation and consider whether alternative, more
effective strategies for developing the address list are feasible.

I would also like to point out that many of the areas I have discussed, including use of
administrative records, are relevant to early planning for the 2020 census, and we hope
that the bureau will use its experiences with Census 2010 to inform its decision-making
for 2020. As we look ahead to 2020, Congress may want to work with the bureau to
consider developing more cost-effective alternatives to 100-percent address canvassing.

Mr. Chairman, this concludes my prepared statement. I would be pleased to respond to
any questions that you or any other Members of the Subcommittee may have at this time.




                                            12
APPENDIX



          Office of Inspector General Reports/Testimony on the
              Decennial Census, 2000 through October 2009

                Documents pertaining to address files and canvassing
                          are highlighted in bold italics.

         (Reports/testimony are available in the OIG Census Reading Room at
         http://www.oig.doc.gov/oig/reports/census_reading_room/index.html)



2009
   •   The 2010 Census: Update of Key Decennial Operations, testimony before the
       Senate Committee on Homeland Security and Governmental Affairs,
       Subcommittee on Federal Financial Management, Government Information,
       Federal Services, and International Security, October 7, 2009.

   •   The 2010 Census and Integrated Communications Campaign, testimony before
       the House Committee on Oversight and Government Reform, Subcommittee on
       Information Policy, Census, and National Archives, September 22, 2009.

   •   2010 Census: First Quarterly Report to Congress, August 7, 2009 (OIG-19791-
       1).

   •   Memorandum to Director, Bureau of the Census, with Recommendations
       from 2010 Census: First Quarterly Report to Congress, August 7, 2009 (OIG-
       19791-l).

   •   Problems Encountered in the Large Block Operation Underscore the Need for
       Better Contingency Plans, August 7, 2009 (OIG-19171-02).

   •   Observations and Address Listers’ Reports Provide Serious Indications That
       Important Address Canvassing Procedures Are Not Being Followed, May 4,
       2009 (OIG-19636-01).

   •   Census 2010: Revised Field Data Collection Automation Contract Incorporated
       OIG Recommendations, But Concerns Remain Over Fee Awarded During
       Negotiations, March 3, 2009 (CAR 18702).

   •   Census 2010: Delays in Address Canvassing Software Development and
       Testing, Help Desk Planning, and Field Office Deployment Have Increased
       Operational Risk, February 12, 2009 (OIG-19171).




                                         13
APPENDIX



2008
   •   Census 2010: Dress Rehearsal of Address Canvassing Revealed Persistent
       Deficiencies in Approach to Updating the Master Address File, October 17,
       2008 (OSE-18599).

   •   FY 2008 FISMA Assessment of the Field Data Collection Automation System,
       September 29, 2008 (OSE-19164).

   •   Census 2010 Decennial: Census Should Further Refine Its Cost Estimate for
       Fingerprinting Temporary Staff, August 8, 2008 (OIG-19058-1).

   •   Census 2010 Decennial: OIG Reviews Through the Decade Identify Significant
       Problems in Key Operations, June 4, 2008 (OIG-19217).


2007
   •   Follow-up Review of the Workers' Compensation Program at the Census Bureau
       Reveals Limited Efforts to Address Previous OIG Recommendations,
       September 28, 2007 (IPE-18592)

   •   Census 2010: Key Challenges to Enumerating American Indian Reservations
       Unresolved by 2006 Census Test, September 19, 2007 (OSE-18027).


2006
   •   Enumerating Group Quarters Continues to Pose Challenges, September 29,
       2006 (OIPE-18046-09-06).

   •   Valuable Learning Opportunities Were Missed in the 2006 Test of Address
       Canvassing, March 31, 2006 (OIG-17524-03-06).


2005
   •   FDCA Program for 2010 Census Is Progressing, but Key Management and
       Acquisition Activities Need to be Completed, August 4, 2005 (OSE-17368)


2004
   •   Improving Our Measure of America: What the 2004 Census Test Can Teach Us
       in Planning for the 2010 Decennial Census, September 30, 2004 (OIG-16949-
       1).




                                         14
APPENDIX



2003
   •   MAF/TIGER Redesign Project Needs Management Improvements to Meet Its
       Decennial Goals and Cost Objective, September 30, 2003 (OSE-15725).


2002
   •   Selected Aspects of Census 2000 Accuracy and Coverage Evaluation Need
       Improvements Before 2010, March 2002 (IG-14226).

   •   Improving Our Measure of America: What Census 2000 Can Teach Us in
       Planning for 2010, March 31, 2002 (OIG-14431).


2001
   •   Actions to Address the Impact on the Accuracy and Coverage Evaluation of
       Suspected Duplicate Persons in the 2000 Decennial Census, March 29, 2001
       (ESA-OSE-13812).


2000
   •   Re-enumeration at Three Local Census Offices in Florida: Hialeah, Broward
       South, and Homestead, September 29, 2000 (ESA-13215).

   •   A Better Strategy Is Needed for Managing the Nation's Master Address File,
       September 2000 (ESA-OSE-12065).

   •   Unjustified Decennial Census Unemployment Compensation Claims Should Be
       Reduced Because Terminations for Cause Were Mostly Well Documented,
       September 29, 2000 (ESA-IPE-13212).

   •   Telephone Questionnaire Assistance Contract Needs Administration and
       Surveillance Plan, August 8, 2000 (ESA-OSE-12376).

   •   Decennial Census Warehousing Operations Needed Attention, July 28, 2000
       (ESA-DEN-11950).

   •   PAMS/ADAMS Should Provide Adequate Support for the Decennial Census, but
       Software Practices Need Improvement, March 2000 (ESA-ESD-11684).

   •   Accountable Property Used for the Decennial Census Needs Improved Controls;
       Bankcard Program Is Well Managed, March 2000 (ESA-ESD-11781).




                                         15
